                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                               PRE-AUDIT SURVEY OF THE
                             WEST VIRGINIA COMMISSION ON
                           NATIONAL AND COMMUNITY SERVICE

                                  OIG Audit Report Number 00- 16
                                       November 5,1999




                                             Prepared by:

                                           KPMG LLP
                                        2001 M Street N.W.
                                       Washington. DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # 5-9-G-8-0022
                                       Task # B9G8V103




This report was issued to Corporation management on March 27, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than September 27, 2000, and complete its corrective actions by March 27,
2001. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                          CORPORATION
                                 Office of Inspector General
                                                                                          FOR NATIONAL
                       Corporation for National and Community Service
                                                                                           SERVICE
                                Pre-Audit Survey of the
               West Virginia Commission on National and Community Service
                             OIG Audit Report Number 00-16

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its ArneriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of ArneriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that ArneriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

Under contract to OIG, KPMG LLP performed the pre-audit survey of the West Virginia
Commission on National and Community Service. Their report, whichfollows, indicates that the
 West Virginia Commission has established effective controls over pre-award and grant selection
procedures, fiscal administration, and the use of training and technical assistance funds. Thefirm
has recommended improvements to the Commission's controls for monitoring subgrantees,
ArneriCorps Member activities, and service hour reporting. In addition, KPMG is recommending
that OIG perform a limited scope auditfor all program years.

CNS OIG has reviewed the report and work papers supporting its conclusions, and we agree with
the findings and recommendations presented.
                                                                                     Inspector General
                                                                                     1201 New York Avenue. NW
                                                                                     Washington. DC 20525
                             Pre-Audit Survey of the West Virginia Commission on
                                       National and Community Service
                                              Table of Contents



RESULTS IN BRIEF...................................................................................................................        ... I

BACKGROUND .............................................................................................................................      2

OVERVIEW OF THE WEST VIRGINIA COMMISSION ............................................................                                         2

OBJECTIVES, SCOPE, AND METHODOLOGY ........................... . .. ........... . ................ . ...3

FINDINGS AND RECOMMENDATIONS ........................................ .......................... ............ . ..5

APPENDIX A, COMMISSION FUNDING: 1996-97 THROUGH 1998-99 ............................. A. 1

APPENDIX B, DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY......................... ............................................ ....... ........... ................... .......B. 1

APPENDIX C, WEST VIRGINIA COMMISSION ON NATIONAL AND COMMUNITY
   SERVICE RESPONSE ......................................................... ............................ ......... C . 1

APPENDIX D, CORPORATION RESPONSE ........................................................................... D. 1
             2001 M Street, N.W.
             Washington, DC 20036




November 5, 1999



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a pre-audit survey of the West Virginia Commission on
National and Community Service. The primary purpose of this survey was to provide a
preliminary assessment of:

   the adequacy of the pre-award selection process;
   the iiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

   The Commission administers an open, competitive process to select national service
   subgrantees.

   The Commission has an adequate process in place for fiscal administration of grants.
   However, we were unable to verify the timeliness of receipt of certain Financial Status
   Reports (FSRs) tested because these documents are not routinely date-stamped upon receipt.

   The Commission has controls in place to evaluate and monitor subgrantees. However, the
   Commission does not consistently obtain Office of Management and Budget (OMB) Circular
   A-133 reports or other audit reports from subgrantees. In addition, the monitoring tool does
   not contain specific sections related to the review for prohibited activities.

   The Commission has adequate controls in place to provide reasonable assurance that training
   and technical assistance is made available and provided to subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.




                                                                      1

1111          KPMG LLP UPMG LLI? a U 5 lhrnlted l~ab#l~ty
                                                      paltnershl~IS
              a member of UPMG Internalanal a Swss assouatton
Although few findings resulted from this pre-audit survey, the Commission's AmeriCorps grants
have never been tested as part of an OMB Circular A-133 audit. Therefore, based on our
preliminary assessment, we recommend the performance of a limited scope audit at the
Commission for program years 1995-96 through 1998-99.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the West Virginia Commission

The West Virginia Commission on National and Community Service, located in Charleston,
West Virginia, has received AmeriCorps grant funds from the Corporation for National and
Community Service since program year 1994-95. The Commission makes grants to non-profit
organizations and other agencies to run National Service Programs. The Commission currently
has five full-time staff consisting of an Executive Director, a Program Officer, a Training and
a m
LL2-!,<   .
          .

    Technical Assistance Officer, a Fiscal OfficerIPublic Outreach Coordinator, and an
    Administrative Assistant.

    As a state agency under the West Virginia Governor's Office, the Commission is subject to the
    annual statewide single audit by the state comptroller, but the AmeriCorps grants have never
    been selected for testing as major programs. However, the Commission was subject to a
    legislative audit as part of its reauthorization as a state agency in 1997. A legislative audit is a
    preliminary performance audit that assesses the Commission's impact on the public and
    attainment of its objectives. No findings were identified in this audit, and the Commission was
    reauthorized for the maximum allowable time period of six years.

    The Commission provided us with the following information for the last three program years:

                                                                                Number of Sub-
                                                                               grantees Subject to
                                      Total Corporation       Number of           A-133 Audit
                 Promam Year              Funding            Submantees *        Reauirements*




     *    Determination is based solely on dollar value of federal awards passed through the
          Commission for the program year. Remaining subgrantees could be subject to an OMB
          Circular A-133 audit if they received additional federal grant funds from other sources.
          Because the Commission does not consistently obtain and review such audit reports as
          reported on page 7, we were unable to verify that applicable subgrantees complied with this
          audit requirement.

    Appendix A contains more detailed information on funding received from the Corporation during
    program years 1996-97 through 1998-99.

     Objectives, Scope, and Methodology

     We were engaged by the Office of the Inspector General, Corporation for National and
     Community Service, to provide a preliminary assessment of the systems and procedures in place
     at the Commission for administering its AmeriCorps grants and for monitoring the fiscal activity
     of subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
     assessment oE

              the adequacy of the pre-award selection process;
              the fiscal procedures at the Commission;
              the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
              Member activities and service hours; and
              the controls over the provision of technical assistance.

     We were also to report on the recommended scope of additional audit procedures to be
     performed at the Commission.
 m a
2 - -   L-   +



        Our survey included the following procedures:

                 reviewing applicable laws, regulations, grant provisions, the Corporation's A Reference
                 Manual for Commission Executive Directors and Members, and other information to gain an
                 understanding of legal, statutory and programmatic requirements;

                 reviewing OMB Circular A-133 reports and current program year grant agreements for the
                 Commission;

                 obtaining information from Commission management to complete flowcharts documenting
                 the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
                 99; and

                 performing the procedures detailed in Appendix B over the Commission's internal controls,
                 selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
                 and the technical assistance process.

        As part of the procedures performed, we documented and tested internal controls in place at the
        Commission using inquiries, observations, and examination of a limited sample of source
        documents. Finally, we summarized the results of our work to develop the findings and
        recommendations presented in this report. We discussed all findings with Commission
        management during an exit conference on November 5, 1999 or prior to the issuance of the draft
        report.

        Our procedures were performed in accordance with Government Auditing Standards issued by
        the Comptroller General of the United States. We were not engaged to, and did not, perform an
        audit of any financial statements, and the procedures described above were not sufficient to
        express an opinion on the controls at the Commission or its compliance with applicable laws,
        regulations, contracts and grants. Accordingly, we do not express an opinion on any such
        financial statements or on the Commission's controls and compliance. Had we performed
        additional procedures, other matters might have come to our attention that would have been
        reported to you.

        We provided a draft of this report to the Commission and the Corporation. The Commission's
        and the Corporation's responses to our findings and recommendations are included as Appendix
        C and Appendix D, respectively.
Findings and Recommendations

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding." The Commission has developed and implemented
various procedures to meet this responsibility. For example, funding availability is widely
advertised, and all selection officials sign conflict of interest certifications before the
commencement of the selection process. In addition, selection officials receive an instruction
package and use a standard score sheet to evaluate each applicant. Applicants are required to
complete an organizational capacity questionnaire to assist selection officials in determining if
the applicants' financial systems are adequate to support the program. The Commission
documents all funding decisions and adequately communicates them to the applicants. We
identified no significant areas for improvement within this process as a result of the limited
procedures performed.

Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensure follow
through on issues of non-compliance" ( A Reference Munual for Commission Executive Directors
and Members, section 4.3). The Commission has developed and implemented procedures to
properly administer grant funds received from the Corporation. Procedures are in place to
withhold funding payments if subgrantees do not submit Financial Status Reports (FSRs) timely,
manage reimbursement-based disbursements to subgrantees, and ascertain whether subgrantees
have met their matching requirements. The Commission's organizational structure appears
adequate and personnel appear to have adequate skills and experience to manage Corporation
grant funds.

Prior to the middle of program year 1996-97, the West Virginia Governor's Office was
responsible for the financial aspects of the Corporation's grants. These responsibilities included
monitoring of grant drawdowns and review for compliance with matching requirements. In mid-
program year 1996-97, the Commission assumed these duties and implemented its current
procedures over the financial requirements of the Corporation's grants.

We identified the following area for improvement related to the evaluation of subgrantee
compliance with reporting and grant requirements.

        Timeliness of Receipt of FSRs

Two of the five FSRs we selected for review were not date stamped upon receipt. The
Commission does not routinely date-stamp FSRs from subgrantees as they are received.
Therefore, the Commission can not routinely verify if these documents are submitted timely in
compliance with the grant agreement. As a result, subgrantee FSRs may be submitted late.

In program year 1999-2000, the Commission began using the Web Based Reporting System
which electronically records the date subgrantees submit their FSRs to the Commission. As a
result, no recommendation is required at this time related to timeliness of receipt of FSRs.
Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. The Commission has developed and implemented various procedures
to meet this responsibility. Commission personnel perform site visits to each subgrantee at least
annually. In program year 1997-98, the Commission began using a standard monitoring checklist
during site visits to determine grantee compliance. As part of completing the checklist during
site visits, Commission personnel select, document and examine a sample of Member files and
expenses reported by the subgrantee. The Commission maintains copies of the supporting
documentation reviewed as an audit trail. Upon completing site visits, Commission personnel
notify the subgrantees of the results, including strengths, challenges, recommendations, and any
necessary follow-up requirements.

Although the review for Member eligibility is part of site visit procedures, the Commission has
historically reviewed the Immigration and Naturalization Service (INS) Form 1-9 to ascertain
eligibility. Maintenance and re-viewof this form for Member eligibility exceeded minimum
requirements set forth by the Corporation prior to program year 1999-2000. However, the INS
Form 1-9 does not validate status as a U.S. citizen, U.S. national or lawful permanent resident
alien of the U.S. Based on new requirements from the Corporation, the Commission has changed
this policy for program year 1999-2000 and will review birth certificates to assess the citizenship
aspect of Member eligibility.

As noted above, prior to the middle of program year 1996-97, the West Virginia Governor's
Office was responsible for the financial aspects of the Corporation's grants. During this time
period, site visits to subgrantees did not include sampling program expenses. However, the
Commission implemented these procedures when it assumed responsibility for monitoring the
financial requirements of the Corporation's grants.

We identified the following areas for improvement related to the evaluation and monitoring of
subgrantees.

        Review for Prohibited Activities

The Commission has no formal procedures in place to determine, on a periodic basis throughout
the grant period, if AmeriCorps Members are performing prohibited activities. The
Commission's site visit monitoring tool does require Commission personnel to note the existence
of subgrantee policies to prevent prohibited activities. However, the Commission has not
incorporated specific procedures for review for prohibited activities into this monitoring tool.

Without proper procedures in place by the Commission to determine if AmeriCorps Members are
performing prohibited activities, such activities being performed by AmeriCorps Members could
remain undetected, causing noncompliance. The inclusion of these procedures in the monitoring
tool would help ensure that they were performed and documented consistently during each site
visit.
        Review of OMB Circular A-133 Reports or Other Audit Reports from Subgrantees

OMB Circular A-133 Compliance Supplement, April 1999, Part 6 - Internal Control suggests
that review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor subgrantees' compliance with federal grant requirements. However, as part of the
Commission's monitoring process, the Commission does not consistently obtain OMB Circular
A-133 or other audit reports from its subgrantees, if applicable. Two of five subgrantees we
selected for review did not have required OMB Circular A-133 or other audit reports on file for
the most recent program year. Therefore, the Commission cannot review these reports to
determine if auditors have identified control weaknesses or instances of noncompliance related to
the AmeriCorps program. As a result, control weaknesses or instances of material
noncompliance related to the AmeriCorps program of which the Commission is not aware may
exist and may not be corrected.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Develop formal procedures to determine if AmeriCorps Members are performing prohibited
    activities. These procedures should be carried out during each subgrantee site visit and
    should be specifically incorporated in the Commission's monitoring tool.

    Ensure that its subgrantees consistently submit OMB Circular A-133 or other audit reports
    once the final reports are issued. The Commission should track receipt of required OMB
    Circular A-1 33 or other audit reports using a control log and follow-up on outstanding
    reports periodically. The Commission should also review these reports, determine if
    corrective action relevant to the AmeriCorps grant is needed, and develop procedures to
    ensure necessary corrective action occurs timely and adequately addresses the issues.

Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its subgrantees.
Procedures are in place at the Commission to (1) identify training needs of subgrantees through
quarterly progress reports, training evaluations, and needs assessment surveys; (2) notify
subgrantees of training programs; and (3) provide needed training to subgrantees. Although
funding is limited to address the training needs of Commission staff, they attend the training
sessions provided to subgrantees. We identified no significant areas for improvement within this
process as a result of the limited procedures performed.



This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
West Virginia Commission on National and Community Service, and the United States Congress
and is not intended to be and should not be used by anyone other than these specified parties.
                                 Commission Funding                             Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past three program years. We were unable to agree the funding amounts to the Commission's
FSRs for (a) 1998-99 because the final FSR for the program year had not been completed at the
time of field work and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year, basis.


        Funding Source and Type                   1996-97         1997-98         1998-99

        CNS Formula Grant Funds                   $ 538,393       $   490,984     $   568,446

         CNS Competitive Grant Funds                299,690           560,288     1,642,5 12

        CNS PDAT Funds                                96,000          188,000         174,000

         CNS Administrative and Other Funds          134,104          165,630         189,681

         State Matching Funds

          Total Funding
                       Commission Funding                                  Appendix A




                Corporation for National Service
     Funding to the West Virginia Commission for National
                    and Community Service
                            1996-97

-
                                  Learn and
    Formula      Competitive                    PDAT           All Other
                                    Serve
     Funds         Funds                        Funds           Funds
                                   Funds
    $538,393      $299,690                     $96,000         $134,104
                                    $N,A
                                                           *




       v              v              v            *               'I

       Total Corporation Funds Available to the Commission
                           $1,068,187




                   Funds Awarded to Subgrantees
                            $838,083




                   Formula                      Competitive
                 Subgrantees                    Subgrantees
                  $538,393                       $299,690
               # of subgrantees               # of subgrantees
                       3                             2
                   # of sites                    # of sites
                      19                             27
                               Commission Funding                               Appendix A




                    Corporation for National Service
         Funding to the West Virginia Commission for National
                        and Community Service
                                1997-98
1                                                                           I



                                      Learn and
        Formula         Competitive                PDAT         All Other
                                        Serve
         Funds            Funds                    Funds         Funds
                                       Funds
        $490,984         $560,288                 $188,000      $165,630




    .      7                   7         v           v               7


           Total Corporation Funds Available to the Commission
                               $1,404,902




                          Funds Awarded to Subgrantees
                                  $1,011,272



               A
                           I                      A
                       Formula                      Competitive
                     Subgrantees                    Subgrantees
                       $450,984                      $560,288
                   # of subgrantees               # of subgrantees
                           3                              2
                       # of sites                     # of sites
                          16                             111
                       Commission Funding                           Appendix A




            Corporation for National Service
 Funding to the West Virginia Commission for National
                and Community Service
                        1998-99



                              Learn and
Formula         Competitive                PDAT         All Other
                                Serve
 Funds            Funds                    Funds         Funds
                               Funds
$568,446        $1,642,5 12               $174,000      $189,681




   v                 v           t           v               v

   Total Corporation Funds Available to the Commission
                       $2,574,639




                  Funds Awarded to Subgrantees
                          $2,2 1O,958




               Formula                      Competitive
             Subgrantees                    Subgrantees
               $568,446                      $1,642,512
           # of subgrantees               # of subgrantees
                   4                              4
               # of sites                     # of sites
                  21
                           Detailed Engagement Objectives
                                  and Methodology                                 Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; procurement, suspension and debarment; subrecipient monitoring; and
reporting by the Commission to the Corporation. We then interviewed key Commission
personnel to assess the Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms were signed by selection officials annually and maintained
by the Commission.

Administering the Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

    make a preliminary assessment as to whether the Commission provided adequate guidance to
    subgrantees related to maintenance of financial systems, records, supporting documentation,
    and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

    determine whether the Commission has procedures in place to verify the accuracy and
    timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission has implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to implement a comprehensive, non-duplicative evaluation and monitoring
    process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
                           Detailed Engagement Objectives
                                  and Methodology                                  Appendix B
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-1 33 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
                                                                         Appendix C




Luise S. Jordan
Inspector General
Corpontion for National Service
1201 New York Avenue, W
Washington, DC 20523
Dear 1Ms. Jordan:
     Pursuant to your letter of February 10, I submit the following responses to the draft repon. on
the preaudit survey of the West Virginia Commission. As requested, suggested revisions
necessary to corrcct errors or clarify facts have been submitted under separate cover.
Recommendation:            "Developformal procedures to detemtine ifilmenCorps Members are
                           performing prohibited activiries. llese procedures silozild be carried out
                           during each subgrantee site visit and sltould be spec@cally incorporated
                           in the Commission's monitoring tool."
Response:           a y waTof B a c m d , the Commission has deveIoped a number of
                           procedures to apprise subgrantees of prohibited activities and monitor
                           their compliance. Those procedures include:
                              Training of subgrantee progarn director and program staff at annual
                              supervisors training:
                              Training of memben at subgrantee member orientation;
                              Close monitoring of subgrantee progress reports, including follow-
                              up to porentially prohibited activity;
                              Cross-stream member training,during which Commission staff talk
                              to members about their activities;
                              Monitoring of news dippings, publications, and other subgrantee
                              publicity; and
                              Annual inspection of subgrantee agetrnents and member-related
                              materials co ensure irxlusion of prohibited activities language.
                           Due to these procedures, the Commission has uncovered instances of
                           violations of prohibited activities and has responded as appropriate to
                           the situation, usual1y by having the program deduct hours from member
                           time sheecs. The Commission has also developed a relationship with its
                           subpntees such that progam staff call the Commission for pidance
                           before they or members engage in potentiaIIy prohibited activ~ties.
                           Neverrheless, the Com;nission has revised its monitoring tool baed on
                           this rccornmendation to include specific questions about prohibited
                           activities md will seek additional cechnicd assistance from the
                           Corporation on this mcx:.
                                                                          Appendix C


Recommendation:            "Require its subgranfees ro subrnir 0 M B Circular A- 133 or other all&
                          repons once &final reports are issued n e Comnrission should track
                          receipr of required OMB CircularA-I33 or other audit repons wing a
                          conrrol log Mdfo~~ow-up       on oursranding reports periodicaity. ?k
                          Commksion should also review these reports, &tennine fi correcrive
                          acrion relevant to the AmeriCorps gram i s nee&d and develop
                          procedures to ensure necessary corrective action occurs rimefy(sic)and
                          adequately d r e s s e s the iques. "
Response:                 The Commission does obtain A-133 or other audit reports from its
                          subprantees on an annual basis, performs a desk review of the report,
                          and takes follow-up action if deemed necessary. The Commission takes
                          issue with implications in the report that the Commission's collection of
                          such repom is haphazard or unregulated. Of all program files reviewed,
                          auditon uncovered only one report missing from the files of two
                          s u b p t e e s . In other words, of 17 audit reports that should have been
                          collected, only two were missing.
                          The Commission reviewed its records and ascertained the reasons for
                          the missing reports, then promptly collected those reports from the
                          subgrantees. The revision of the Commission's monitoring tools
                          mentioned above includes a clear check-off when reports arc submitted.
    Should you have any questions about this matter, please do not hesitate to contact me at (304)
340-3627.
                                                 Sincerely,


                                                Mean hnbrose
                                                 Executive h t o r
cc: Paula Raherty, Chair of the Commission
    Dawna Skaggs, Financial Accounting and Reporting Section
    Bryan Michaels, State Comptroller
MEMORANDUM
                                                                AmerlCorps National Service   C 0RP0RATI 0 N

                                                                                              FOR NATIONAL
TO:            Luise S. Jordan

THRU:

FROM:          Deborah R. J~~@"("
               Bruce H. Cline

DATE:          March 10.2000

SUBJECT:       Response to the Draft Audit Report 00- 16, Pre-Audit Survey of the West
               Virginia Commission for National Community Service

We have reviewed the draft report on your pre-audit survey of the West Virginia
Commission for National and Community Service. Given the nature of the report. this
response serves as our proposed management decision. We note that your preliminary
assessment recommends a limited scope audit at the Commission for program years
1995-96 through 1998-99. The draft audit report includes a recommendation to the
Corporation. We are providing the following response to that recommendation. The
Inspector General recommended:

        "Additionally, we (the Inspector General) recommend that the Corporation follow
        up with the Commission to determine that appropriate corrective actions are put
        into place to address the conditions reported herein, and that the Corporation
        consider these conditions in its.oversight and monitoring of the Commission."

Some of the conditions cited in the "results in brief' section of the report include
concerns related to the timely receipt of Financial Status Reports, the review of audit
reports from subgrantees and the review for prohibited activities.

Given our limited program administration resources, we developed a plan to assess State
Commission administration functions. Over a three-year period, we will be reviewing
each of the state commissions. As part of our follow-up with West Virginia, we will
determine whether the Commission has put appropriate corrective actions in place for
conditions noted in the pre-audit survey that your office has issued.

In addition to this scheduled review, we will also request that the West Virginia
Commission provide semi-annual reports on their actions to correct conditions cited in
the OIG pre-audit survey.                                                                      1201 New Yo& Avenue. EF
                                                                                               Washington. DC 20525
                                                                                               Telephone '2024C65000
